No. 20-39

 

 

IN THE

Supreme Court of the United States

AVIC INTERNATIONAL HOLDING
CORPORATION; AVIC INTERNATIONAL
RENEWABLE ENERGY CORPORATION;

AVIATION INDUSTRY CORPORATION OF CHINA;
CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED,

Petitioners,
v.

SOARINGWIND ENERGY, L.L.C., ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,636 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 6, 2020.

Colin Cased Hogan

Wilson-Epes Printing Co., Inc.
